                        U.S. Department of Agriculture

                           Office of Inspector General
                                       Midwest Region




              Audit Report

Controls Over Guaranteed Farm Loan Interest
       Rates and Interest Assistance




                              Report No. 03601-17-Ch
                                     September 2008
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington, D.C. 20250




09/29/2008

REPLY TO
ATTN OF:      03601-17-Ch

TO:           Teresa C. Lasseter
              Administrator
              Farm Service Agency

THROUGH: T. Mike McCann
         Director
         Operations Review and Analysis Staff

FROM:         Robert W. Young /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Controls Over Guaranteed Farm Loan Interest Rates and Interest Assistance


This report presents the results of our audit of Controls Over Guaranteed Farm Loan Interest
Rates and Interest Assistance. Your written response to the official draft report, dated
September 23, 2008, is included in its entirety as exhibit A in this report. Excerpts of your
response and the Office of Inspector General’s (OIG) position are incorporated into the Findings
and Recommendations section of the report.

Based on your response, we have reached management decisions on Recommendations 1, 2, 3,
6, and 7. Please follow your agency’s internal procedures in forwarding documentation for final
actions to the Office of the Chief Financial Officer. Management decisions can be reached for
Recommendations 4 and 5 once you have provided us with the additional information outlined in
the report section, OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned and the timeframes for implementation of
those recommendations for which management decisions have not yet been reached. Please note
that the regulation requires a management decision to be reached on all findings and
recommendations within a maximum of 6 months from report issuance and final action to be
taken within 1 year of each management decision.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Executive Summary
Controls Over Guaranteed Farm Loan Interest Rates and Interest Assistance

Results in Brief                     This report presents the results of our audit of the Farm Service Agency’s
                                     (FSA) controls over guaranteed farm loan interest rates and interest
                                     assistance. We initiated this audit because of concerns raised by farmers and
                                     the U.S. Department of Justice over interest rates being charged on
                                     FSA-guaranteed loans.

                                     Through its Farm Loan Programs, FSA provides financial assistance in the
                                     form of guaranteed loans to high-risk borrowers who are unable to obtain
                                     commercial credit. A loan guarantee substantially reduces the lender’s risk of
                                     loss because FSA will reimburse the lender up to 95 percent of the
                                     outstanding loan principal and interest if a borrower were to default. To
                                     qualify for a guarantee, lenders must make sure each borrower has the ability
                                     to repay the loan and maintain appropriate collateral. Lenders can also apply
                                     to FSA for interest assistance (IA) on a guaranteed operating loan when the
                                     borrower cannot achieve a positive cash flow1 without the IA, but can
                                     achieve a positive cash flow with IA. Through the IA program, FSA
                                     reimburses lenders up to 4 percentage points on the loan, in exchange for the
                                     lender reducing the interest rate charged to the borrower by that amount.

                                     Each lender enters into a signed agreement with FSA that states the lender
                                     will follow Federal regulations. Interest rates are negotiated between the
                                     lender and the borrower. Federal regulations state that guaranteed loan
                                     interest rates may not exceed what the lender charges to its average
                                     agricultural loan customer. In addition, the lender must be able to provide
                                     evidence of the rate charged to its average agricultural loan customer2
                                     (hereinafter referred to as the “average agricultural loan customer rate”). An
                                     “average agricultural loan customer” is defined in regulations as a borrower
                                     who is neither high nor low-risk.3

                                     Our audit found that FSA did not have effective controls in place to ensure
                                     that interest rates met program requirements for its 56,000 guaranteed loans,
                                     valued at $12.1 billion.4 Neither FSA personnel nor the lenders interviewed
                                     during the audit could articulate what criteria they used to demonstrate
                                     compliance with the interest rate limitation specified in program regulations.
                                     Therefore, we could not fully validate the reasonableness of the interest rates
                                     charged for FSA-guaranteed loans. FSA officials acknowledged that they did
                                     not have adequate controls or oversight of interest rates, but instead, relied
                                     upon lenders to follow regulations.

1
  Positive cash flow is when a borrower’s cash inflows exceed their cash outflows.
2
  Title 7 Code of Federal Regulations (CFR) § 762.124(a)(3), dated February 12, 1999, and amended April 9, 2007.
3
  7 CFR § 762.102, dated February 12, 1999, and amended April 9, 2007.
4
  FSA’s Guaranteed Loan System contained 55,906 loans as of October 24, 2007, that carried a value of $12.1 billion at loan origination.
USDA/OIG-A/03601-17-Ch                                                                                                                     Page i
                                     We visited four counties in two States and reviewed controls over interest
                                     rates for the guaranteed loans made in those counties. At the time of our
                                     audit, the selected counties had 839 guaranteed loans totaling $167 million.
                                     We judgmentally selected 71 loans to review that totaled $16.9 million and
                                     were approved from FY 2000 through FY 2007. We found that the FSA
                                     officials responsible for approving the guaranteed loans5 did not evaluate
                                     whether the interest rates charged by the lenders met requirements or require
                                     lenders to provide evidence of the reasonableness of the rates charged to its
                                     borrowers. These FSA officials stated that they have not received guidance or
                                     training on how to determine compliance with interest rate program
                                     requirements.

                                     We performed work at five lenders6 in four counties and not a single lender
                                     could provide evidence of its average agricultural loan customer rate, as
                                     required by Federal regulations.7 Our review was limited, however, because
                                     we had no access to private loan information through the terms of the loan
                                     guarantee agreements. We question how FSA can monitor and validate
                                     program compliance if guaranteed interest rates can not be validated based on
                                     readily available information provided by the lenders.

                                     Therefore, we calculated average interest rates for each lender using the
                                     methodologies reported to us by the lenders. We found that 4 lenders charged
                                     interest rates for 28 of 71 loans we reviewed above their average agricultural
                                     loan customer rates. One lender charged as much as 2.25 percent above its
                                     average agricultural loan customer rate. For illustrative purposes, we
                                     calculated that the 28 borrowers could potentially save approximately
                                     $277,000 over the life of the loans, had the lenders’ interest rates been
                                     established and justified, as required by FSA regulations.

                                     We also determined that FSA officials were not aware of the problems we
                                     identified because interest rates were not being reviewed as part of FSA’s
                                     national, State and county reviews of operations and controls. Each year FSA
                                     officials conduct Farm Loan Program Risk Assessments, lender file reviews,
                                     and the County Operations Review Program reviews to evaluate program
                                     effectiveness and/or compliance with applicable statutes, regulations,
                                     directives or other goals. We found that FSA had not established procedures
                                     for its oversight reviews to evaluate the interest rates being charged by
                                     participating lenders.

                                     FSA officials agreed that additional controls are needed over interest rates in
                                     the guaranteed loan program, and they informed us that they have already
5
  FSA Handbook 1 Farm Loan Program (FLP), par. 29, dated December 31, 2007, states that county officials have approval authority for guaranteed loan
applications up to $500,000. Guaranteed loan applications that exceed $500,000 must be approved by officials at the FSA State office.
6
  The 5 selected lenders had 446 guaranteed loans listed in FSA’s Guaranteed Loan System as of October 24, 2007, at an approved value of $80.3 million.
7
  7 CFR § 762.124(a)(3), dated February 12, 1999, and amended April 9, 2007, states that the lender must provide evidence of the rate charged to the
average agricultural loan customer.
USDA/OIG-A/03601-17-Ch                                                                                                                       Page ii
                   initiated actions and studies to provide a simple, clear regulation that
                   specifies the rate-setting methodology that should be used. Our audit did not
                   find any problems with the approval and application of interest assistance to
                   borrower accounts.

Recommendations
In Brief           We recommended that FSA:

                          Review and clarify interest rate requirements for the guaranteed loan
                          program;

                          Issue instructions to lenders to clarify their responsibilities regarding
                          interest rate requirements and revise the Lender’s Agreement to
                          specify such requirements;

                          Require lenders to provide evidence that interest rates meet program
                          requirements at the time of FSA’s approval of the loan guarantee;

                          Seek legal advice to determine what actions can be taken in those
                          cases where the lenders potentially charged higher interest rates to
                          borrowers than allowed by regulations; and

                          Evaluate interest rates as part of its oversight reviews and,
                          periodically on a nationwide basis, identify any trends or questionable
                          information that may require management attention.

Agency Response    In their response, FSA officials agreed with the recommendations in the
                   report. We have incorporated applicable portions of their response, along
                   with our position, within the Findings and Recommendations sections of the
                   report. The agency’s response is included in its entirety as exhibit A of this
                   report.

OIG Position       Based on the response, we have reached management decisions on
                   Recommendations 1, 2, 3, 6, and 7. Management decisions can be reached on
                   Recommendations 4 and 5 once FSA has provided us with the additional
                   information outlined in the report section, OIG Position.




USDA/OIG-A/03601-17-Ch                                                                     Page iii
Abbreviations Used in This Report


CFR                  Code of Federal Regulations
COR                  County Operations Review
FLP                  Farm Loan Program
FLPRA                Farm Loan Program Risk Assessment
FO                   Farm Ownership Loan
FSA                  Farm Service Agency
FY                   Fiscal Year
IA                   Interest Assistance
OCFO                 Office of the Chief Financial Officer
OIG                  Office of Inspector General
OL                   Operating Loan




USDA/OIG-A/03601-17-Ch                                       Page iv
Table of Contents
Executive Summary ................................................................................................................................. i

Abbreviations Used in This Report ...................................................................................................... iv

Background and Objective..................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1: FSA Needs to Improve Controls Over Guaranteed Farm Loan Interest Rates ........ 3

        Finding 1 FSA Did Not Verify That Lenders Complied With Interest Rate Requirements
                    for Guaranteed Loans .............................................................................................. 4
                         Recommendation 1........................................................................................... 9
                         Recommendation 2........................................................................................... 9
                         Recommendation 3......................................................................................... 10
                         Recommendation 4......................................................................................... 10
                         Recommendation 5......................................................................................... 11
        Finding 2 FSA Needs to Enhance its Oversight to Include a Review of Interest Rates ............. 12
                         Recommendation 6......................................................................................... 13
                         Recommendation 7......................................................................................... 14

Scope and Methodology........................................................................................................................ 15

Exhibit A–Agency Response ................................................................................................................ 18




USDA/OIG-A/03601-17-Ch                                                                                                                     Page v
Background and Objective
Background                            The Farm Service Agency (FSA) was established under the Department of
                                      Agriculture Reorganization Act of 1994 (Public Law 103-354), as amended.
                                      FSA’s mission is to contribute to the viability of American agriculture by
                                      providing commodity price and income support, disaster assistance, and
                                      direct and guaranteed farm loans. FSA provides these services through its
                                      51 State offices8 and approximately 2,350 county offices nationwide.

                                      The Consolidated Farm and Rural Development Act (Public Law 109-771),
                                      as amended, gives the Secretary of Agriculture the authority to make and
                                      insure loans to farmers and ranchers who meet specific eligibility
                                      requirements. Through its Farm Loan Programs, FSA provides financial
                                      assistance in the form of direct and guaranteed farm ownership loans (FO)
                                      and operating loans (OL) to borrowers unable to obtain commercial credit.
                                      FSA makes and services direct loans using Government funds. Borrowers
                                      who meet specific eligibility requirements for guaranteed loans must apply to
                                      a commercial lender, which arranges with FSA for the guarantee. FSA can
                                      provide lenders with up to a 95 percent guarantee of the principal and interest
                                      for FOs and/or OLs, not to exceed $949,000 combined. At the time of our
                                      audit, approximately 3,000 lenders had loan guarantees from FSA for
                                      56,000 loans valued at $12.1 billion.9

                                      Borrowers that are approved for a guaranteed OL may also be eligible for the
                                      Interest Assistance (IA) Program. A borrower may be eligible for IA if they
                                      can demonstrate inability to achieve a positive cash flow10 without IA, but
                                      can achieve a positive cash flow with IA. Under the IA Program, FSA agrees
                                      to reimburse the lender up to 4 percentage points in exchange for the lender
                                      reducing the interest rate charged to the borrower by that amount. In fiscal
                                      year (FY) 2007, FSA reimbursed lenders approximately $26 million in IA.

                                      The loan interest rate is negotiated between the lender and borrower.
                                      However, the interest rate on the guaranteed loan may not exceed the lender’s
                                      average agricultural loan customer rate. Guaranteed FOs may be used to
                                      purchase farmland, construct or repair buildings, and refinance debt.
                                      Guaranteed OLs may be used to purchase items needed for a successful farm
                                      operation, such as livestock, farm equipment, and other operating expenses.

                                      Lenders originate and service FSA-guaranteed loans. As part of the
                                      origination process, the lender reviews a borrower’s loan application to
                                      determine whether the borrower meets the eligibility requirements, has a
                                      satisfactory credit history, demonstrates repayment ability, and can provide

8
  FSA also has an office in Puerto Rico.
9
  Source: FSA’s Guaranteed Loan System as of October 24, 2007.
10
   Positive cash flow is when a borrower’s cash inflows exceed their cash outflows.
USDA/OIG-A/03601-17-Ch                                                                                        Page 1
                                    sufficient security for the loan. Guaranteed loan servicing includes ensuring
                                    that the loan funds are used for authorized purposes, that borrowers are in
                                    compliance with all applicable regulations, and that the collateral is adequate.

                                    FSA national, State, and county officials monitor the Farm Loan Programs
                                    through formal reviews. These reviews include lender file reviews, the Farm
                                    Loan Program Risk Assessment (FLPRA), and the County Operations
                                    Review (COR). The lender file reviews are the primary tool that FSA uses to
                                    monitor whether lenders are meeting the underwriting, origination, and
                                    servicing requirements of their Lender’s Agreement and the Guaranteed Loan
                                    Handbook.11 Lender file reviews are performed annually by each level of
                                    FSA:

                                              FSA national officials lead file reviews of lenders with guaranteed
                                              loans made in 3 or more States, when requested by Farm Loan
                                              Program management. As part of these reviews, 20 percent of the
                                              borrower files will be checked.

                                              FSA State officials review 20 percent of the borrower files at lenders
                                              with guaranteed loans made in 1 or 2 States.

                                              FSA county officials review up to 40 percent of the borrower files at
                                              lenders with guaranteed loans made in 1 State.

                                    On an annual basis, FSA national officials perform FLPRA reviews to
                                    evaluate the effectiveness of Farm Loan Program delivery systems and to
                                    ensure compliance with applicable statutes, regulations, and directives. Using
                                    a risk-based approach, FSA performs FLPRA reviews in approximately 10 to
                                    12 States per year, with low-risk States being reviewed about every 5 years
                                    and high-risk States being reviewed more frequently.

                                    FSA officials conduct the COR to assess county office programs and
                                    activities compliance with stated objectives and requirements. The COR
                                    results are accumulated in a nationwide report for use by FSA management.

                                    We initiated this audit because of concerns raised by farmers and the U.S.
                                    Department of Justice over interest rates being charged on FSA guaranteed
                                    loans.

Objective                           To evaluate FSA’s controls over the guaranteed farm loan interest rates
                                    charged and interest assistance provided to borrowers.




11
     FSA Handbook 2 FLP, dated December 31, 2007.
USDA/OIG-A/03601-17-Ch                                                                                       Page 2
Findings and Recommendations
Section 1: FSA Needs to Improve Controls Over Guaranteed Farm Loan Interest Rates

                                    Through its Farm Loan Programs, FSA provides financial assistance in the
                                    form of guaranteed loans to high-risk farmers who are unable to obtain
                                    commercial credit. A loan guarantee substantially reduces the lender’s risk of
                                    loss because FSA will reimburse the lender up to 95 percent of the
                                    outstanding loan principal and interest if a borrower were to default.
                                    Federal regulations state that guaranteed loan interest rates may not exceed
                                    what the lender charges to its average agricultural loan customer. In addition,
                                    the lender must be able to provide evidence of the rates charged to its average
                                    agricultural loan customer.12 An “average agricultural loan customer” is
                                    defined in regulations as a borrower who is neither high nor low-risk.13

                                    Our review found that none of the five lenders we visited could provide
                                    evidence of their average agricultural loan customer rates, as required by
                                    Federal regulations. FSA officials responsible for approving loan guarantees
                                    did not request any evidence from the lenders to support the rates charged, or
                                    verify whether the rates exceeded program limits. Based on our calculations,
                                    four of the five lenders potentially charged guaranteed loan borrowers interest
                                    rates higher than their average agricultural loan customer rates. We calculated
                                    that the borrowers could potentially save approximately $277,000 over the
                                    life of the loans had the lenders’ interest rates been established and justified,
                                    as required by FSA regulations.

                                    Even though FSA officials perform several types of oversight reviews to
                                    ensure the proper management of the guaranteed loan portfolio, we found
                                    that these reviews did not disclose any problems with the lenders’
                                    documentation of the interest rates charged or whether the rates charged
                                    exceeded prescribed limits. We found that FSA’s oversight reviews did not
                                    assess lender compliance with the interest rate requirements at loan
                                    origination or during the life of the loan. FSA officials acknowledged they
                                    did not review interest rates. They relied on lenders to honor their agreement
                                    with FSA, which requires lenders to adhere to Federal regulations.14




12
  7 CFR § 762.124(a)(3), dated February 12, 1999, and amended April 9, 2007.
13
  7 CFR § 762.102, dated February 12, 1999, and amended April 9, 2007.
14
  Form FSA 1980-38, “Lender’s Agreement,” dated July 31, 2007, states that the lender and its agents shall provide access to allow the Agency, or any
party authorized by the Agency, to conduct reviews of the lender’s operations for the purpose of verifying compliance with this agreement and Agency
regulations and guidelines.
USDA/OIG-A/03601-17-Ch                                                                                                                     Page 3
Finding 1                           FSA Did Not Verify That Lenders Complied With Interest Rate
                                    Requirements for Guaranteed Loans

                                    None of the five lenders we reviewed were able to provide any evidence to
                                    support that the interest rates charged on their FSA guaranteed loans did not
                                    exceed their average agricultural loan customer rate. The lenders stated they
                                    were aware of the regulatory requirements for interest rates, however, they
                                    were not clear how to determine the rate for an average agricultural loan
                                    customer.

                                    The FSA State and county officials responsible for approving loan
                                    guarantees15 did not request any evidence from the lenders to support the
                                    rates charged or verify that the rates did not exceed program limits. Based on
                                    the methodologies the lenders stated they used to establish FSA-guaranteed
                                    loan rates, we calculated the average agricultural loan customer rates. We
                                    found that 28 (or 39 percent) of the 71 guaranteed loans that we reviewed
                                    exceeded the lender’s average agricultural loan customer rate by as much as
                                    2.25 percent. As a result, we concluded that FSA has no assurance that the
                                    lenders were charging interest rates in accordance with program
                                    requirements.

                                    Federal regulations16 state that the interest rate on FSA-guaranteed farm loans
                                    may not exceed the rate the lender charges its average agricultural loan
                                    customer. At the request of the agency, the lender must provide evidence of
                                    the average agricultural loan customer rate. Federal regulations define the
                                    average customer as a conventional farm borrower who is required to pledge
                                    crops, livestock, and/or real estate security for the loan. This does not include
                                    the high-risk farmer with limited security or the low-risk farm customer who
                                    obtains financing on a secured or unsecured basis, with collateral items such
                                    as savings accounts to pledge for the loan.17

                                    Lenders Could Not Provide Any Evidence to Support Rates Charged

                                    The five lenders we reviewed did not calculate or maintain evidence of their
                                    average agricultural loan customer rates. At each lender, officials stated that
                                    they were familiar with FSA’s policies and interest rate requirements.
                                    However, because they were not clear on how to determine their rates
                                    charged an “average agricultural loan customer”, they used factors such as
                                    borrower risk, their cost of funds, the Federal Reserve Prime Rate or
                                    competition from other lenders. Because the lending officials did not

15
   FSA Handbook 1 FLP, par. 29, dated December 31, 2007, states that county officials have approval authority for guaranteed loan applications up to
$500,000. Guaranteed loan applications that exceed $500,000 must be approved by officials at the FSA State office.
16
   7 CFR § 762.124(a)(3), dated February 12, 1999, and amended April 9, 2007.
17
   7 CFR § 762.102, dated February 12, 1999, and amended April 9, 2007.
USDA/OIG-A/03601-17-Ch                                                                                                                    Page 4
                                      calculate or maintain evidence of their average agricultural loan customer
                                      rates, we based our analysis on the lenders’ stated methodology and any
                                      historical rate information they could provide.

                                      The two lenders we visited in Nebraska were not able to provide their
                                      average agricultural loan customer rates, but they provided historical interest
                                      rate records for their agricultural loans and a verbal explanation of how they
                                      established interest rates. Officials from all three Wisconsin lenders stated
                                      that they did not maintain historical interest rate records nor did they have
                                      any written policies describing how they established agricultural loan rates.
                                      However, we were able to obtain verbal descriptions of the interest rate
                                      policies from the Wisconsin lenders and some supplemental information
                                      related to interest rates.

                                      OIG Calculation of the Average Agricultural Loan Customer Rate

                                      Using the information provided by the lenders, we established average
                                      agricultural loan customer rates at the times each of the 71 guaranteed loans
                                      in our sample was made, taking into account factors such as loan type, term,
                                      amount, and whether the rate was variable or fixed.18 We then compared our
                                      calculated (average agricultural loan customer) rate to the interest rate on the
                                      loan note. However, we found that the methodology and historical
                                      information provided to us by the lenders did not always correlate to the loan
                                      note rates we wanted to compare.

                                      For example, Lender A originally explained that it established interest rates
                                      based on its assessment of each borrower’s risk.19 According to the lender,
                                      after completing a risk assessment, the borrower was assigned an interest rate
                                      using a 4-tiered rate system. Borrowers representing the least amount of risk
                                      of loss to the lender received the best (lowest) interest rates. Lender A
                                      indicated that the middle of the risk-tiers would be its average agricultural
                                      loan customer rate. It also provided historical interest rate information for the
                                      periods covering the loans in our sample.

                                      We attempted to apply the methodology explained to us by the officials at
                                      Lender A and compare interest rates against the average agricultural loan
                                      customer rate of the risk-tiered system. However, we determined that the
                                      interest rates on the loan note did not always follow the stated process or
                                      correlate to the historical rate information provided by the lender. The
                                      interest rates fluctuated such that no process could logically explain them, as
                                      interest rates were both above and below the average agricultural loan
                                      customer rates that we calculated. While the lender did provide us with some
                                      additional adjustments to its interest rate process that we used, officials were

18
   A lender’s average agricultural loan customer rate would include both its guaranteed and non-guaranteed agricultural customers, and we did not have
access to the lender’s non-guaranteed loan portfolio to confirm their true average agricultural loan customer rates, or verify the information they provided.
19
   The lender assessed risk based upon such items as evaluating the borrowers’ financial position, lending history, collateral, and credit rating.
USDA/OIG-A/03601-17-Ch                                                                                                                            Page 5
                                         not able to explain why the rates fluctuated. We concluded that this lender
                                         charged up to 1.2 percent above the average agricultural loan customer rate
                                         for 7 of 16 loans, and as much as 2 percent below the average agricultural
                                         loan customer rate for 9 of 16 loans.

                                         Overall, we found that guaranteed loan interest rates at 4 of the 5 lenders
                                         exceeded the interest rates charged to their average agricultural loan
                                         customers (as computed by OIG) for 28 of 71 (39 percent) of the loans
                                         reviewed. Table 1 shows the distribution of the 28 loans in relation to the
                                         average agricultural loan customer rates that we calculated.

                                                                                              Table 1
                                                Range Over the Average
                                            Agricultural Loan Customer Rate                                         Number of Loans
                                                     1.51% to 2.25%                                                       4
                                                     1.01% to 1.50%                                                       6
                                                     0.51% to 1.00%                                                      10
                                                     0.16% to 0.50%                                                       8
                                                        TOTALS                                                           28

                                         For illustrative purposes, we calculated the amount of extra interest
                                         borrowers could potentially pay for the 28 loans we determined exceeded the
                                         average agricultural loan customer rate. For example, we computed the
                                         average for a 20-year Farm Ownership loan to be 9.35 percent; however, the
                                         borrower received an interest rate of 9.85 percent. We calculated that this
                                         borrower could pay more than $16,000 in extra interest over the life of the
                                         loan. In total, we calculated that the 28 borrowers could have potentially
                                         saved about $277,000 in interest payments had the interest rates been limited
                                         to a verified average agricultural loan customer rate.

                                         Comparison of Guaranteed Loan Rates to the Federal Reserve Prime Rate

                                         Each of the lenders had difficulty providing an interest rate methodology that
                                         we were able to verify with the loans in our sample. We found that interest
                                         rates widely fluctuated among the loans in our sample. We compared the
                                         distribution of interest rates for the 71 loans we reviewed against the Federal
                                         Reserve Prime Rate20 (Prime) because 4 of the 5 lenders claimed to use Prime
                                         to either establish or adjust interest rates throughout the life of the loan
                                         (see table 2 on the following page). The interest rates of the 71 loans
                                         fluctuated from Prime by as much as 5.50 percent. Lender B, for example, set
                                         one loan rate equal to Prime, but set another loan at 5.50 percent above
                                         Prime.



20
     The Federal Reserve Board defines its Prime Rate as the lowest interest rate being offered by banks to its preferred borrowers.
USDA/OIG-A/03601-17-Ch                                                                                                                 Page 6
                                                                       Table 2
                                              Range Over the Prime Rate                                           Number of Loans
                                                  More than 4.00%                                                      14
                                                   3.00% to 3.99%                                                      15
                                                   2.00% to 2.99%                                                      19
                                                   1.00% to 1.99%                                                      16
                                                   Less than 1.00%                                                      7
                                                      TOTALS                                                           71

                                      We also plotted the guaranteed loan interest rates for all 71 loans in our
                                      sample on the same time continuum and compared the interest rates with
                                      Prime. As chart 1 illustrates, the interest rates widely fluctuated among all the
                                      loans in our sample, and in comparison to Prime.

                                                                                           Chart 121
                                                                                      5 Sampled Lenders



                                                   11.00%


                                                    9.00%


                                                    7.00%


                                                    5.00%


                                                    3.00%


                                                    1.00%
                                                            2002                    2003                      2004                      2005



                                                                             FSA Borrower Rate                       Prime Rate




                                      We found that only Lender C established interest rates that were generally
                                      consistent with Prime (see chart 2 on the following page), but we had
                                      difficulty getting a clear explanation of how it established rates. Officials at
                                      Lender C originally explained that rates were established using its cost of
                                      funds22 plus 4 percent. We were subsequently told it was set by using Prime
                                      plus a percentage. The final explanation we received was that it used Prime
                                      plus a percentage that can be adjusted by their local lending officials “based
                                      on credit risk and other related factors.”
21
   Our sources for the guaranteed loan interest rates were the loan origination documents on file with both the lender and FSA’s county offices. The source
of the Federal Reserve Prime Rate used in the report was Federal Reserve Board’s website at http://www.federalreserve.gov.
22
   Officials at Lender C stated that their cost of funds was a complicated calculation that could use as many as 20 different variables including items such
as local deposits, brokered certificates of deposit, and variable rate brokered money market accounts.
USDA/OIG-A/03601-17-Ch                                                                                                                           Page 7
                                                                                       Chart 2
                                                                                       Lender C


                                               11.00%


                                                 9.00%


                                                 7.00%


                                                 5.00%


                                                 3.00%


                                                 1.00%
                                                         2002                   2003                   2004                    2005




                                                                         FSA Borrower Rate                    Prime Rate




                                    We discussed our results with each of the lenders. Lending officials were
                                    familiar with FSA’s interest rate requirements and the need to apply an
                                    average agricultural loan customer rate and to keep evidence of the rate.
                                    However, lending officials told us that interest rates were not based an
                                    agricultural average, but on items such as their assessment of borrower risk,
                                    the Prime rate, or their cost of funds. Lending officials were not able to
                                    explain why our results were inconsistent with their stated methodology or
                                    provide evidence of how they established interest rates. Lenders did state that
                                    factors such as competition from other lenders could result in deviation from
                                    their general interest rate policies. Officials at two lenders stated that they
                                    charged as high a rate as the borrower would accept, and one of these lenders
                                    said that FSA’s approval of the guarantee was its evidence that its interest
                                    rate was acceptable. Lenders generally stated that they were not clear what an
                                    “average agricultural loan customer” represented and FSA officials never
                                    requested this information.

                                    We also discussed our results with FSA State and county officials who were
                                    responsible for approving loan guarantees.23 They indicated that interest rates
                                    were not a priority, and they had no specific requirement to verify lender
                                    compliance. Furthermore, they did not request lenders to provide evidence of
                                    the average agricultural loan customer rate because they were not clear what
                                    documentation to request. They did not have instructions or receive training
                                    on how to administer the interest rate requirements.



23
  FSA Handbook 1 FLP, par. 29, dated December 31, 2007, states that county officials have approval authority for guaranteed loan applications up to
$500,000. Guaranteed loan applications that exceed $500,000 must be approved by officials at the FSA State office.
USDA/OIG-A/03601-17-Ch                                                                                                                   Page 8
                   As mentioned earlier, 7 CFR § 762.124(a) (3) states that the interest rate on
                   the FSA-guaranteed loan cannot exceed the rate the lender charges its
                   average agricultural loan customer. Furthermore, at the request of the agency,
                   the lender must provide evidence of its average agricultural loan customer
                   rate.

                   We noted that the “Lender’s Agreement” (Form FSA-2201) does not
                   specifically cite the above regulatory requirement, except to state that the
                   lender must maintain compliance with the criteria set forth in 7 C.F.R. part
                   762. In the “Conditional Commitment” (Form FSA-1980-15), which is
                   submitted by the lender to FSA with each loan application, part B –
                   “Conditions,” item 15, states that the interest rate cannot exceed the rate the
                   lender charges its average farm customer. The lender must certify on form
                   FSA-1980-22 that all requirements of the Conditional Commitment have
                   been or will be met on the guaranteed loan by the loan closing date.

Recommendation 1

                   Review and clarify interest rate requirements for the guaranteed loan
                   program.

                   Agency Response

                   In their response, FSA officials agreed with our recommendation and stated
                   that the current regulations have been confusing to some lenders. FSA
                   officials have prepared a proposed rule to simplify and clarify interest rate
                   requirements. The final rule should be published by June 30, 2009.

                   OIG Position

                   We accept FSA’s management decision on this recommendation.

Recommendation 2

                   Issue instructions to lenders to clarify their responsibilities regarding interest
                   rate requirements and revise the Lender’s Agreement to specify such
                   requirements.

                   Agency Response

                   In their response, FSA officials agreed with our recommendation and will
                   amend the instructions in 2-FLP Handbook and revise the forms when the
                   final rule on interest rate requirements is published by June 30, 2009.




USDA/OIG-A/03601-17-Ch                                                                       Page 9
                   OIG Position

                   We accept FSA’s management decision on this recommendation.

Recommendation 3

                   Issue instructions to the FSA State and county loan approving officials to
                   obtain documentary evidence from lenders to use in reviewing and approving
                   interest rates charged to FSA-guaranteed loan borrowers.

                   Agency Response

                   In their response, FSA officials agreed with our recommendation and will
                   amend the instructions in 2-FLP Handbook and revise the forms when the
                   final rule on interest rate requirements is published by June 30, 2009.

                   OIG Position

                   We accept FSA’s management decision on this recommendation.

Recommendation 4

                   Require lenders to provide evidence that interest rates meet program
                   requirements at the time of FSA’s approval of the loan guarantee.

                   Agency Response

                   In their response, FSA officials agreed with our recommendation and stated
                   that they will develop an automated system that will interface through the
                   Guaranteed Loan System and be linked to specific indices. Under this system,
                   loans that are tied to published indices will be flagged if the rate does not
                   meet program requirements. In addition, the system will generate a report that
                   will notify staff to make corrections. The regulation and 2-FLP will require
                   lenders that utilize risk based pricing models to provide evidence that interest
                   rates meet program requirements. These enhancements will be implemented
                   by December 31, 2009.

                   OIG Position

                   We agree with the actions proposed by FSA; however, the implementation
                   date for these actions is December 31, 2009, which differs by 6 months from
                   the anticipated implementation dates for the regulatory and instructional
                   changes detailed in FSA’s response to Recommendations 1 through 3. In
                   order to reach management decision, FSA needs to provide a response that
                   includes interim corrective actions to be put in place at the time the new

USDA/OIG-A/03601-17-Ch                                                                    Page 10
                   regulation and other instructional changes go into effect, until the new
                   interface and other program policy changes are implemented.

Recommendation 5

                   Seek legal advice to determine what actions can be taken in those cases
                   where the lenders potentially charged higher interest rates to borrowers than
                   allowed by regulations.

                   Agency Response

                   In their response, FSA officials agreed with our recommendation, and they
                   requested legal advice from the Office of the General Counsel. In a
                   subsequent message to OIG, FSA officials reported that the request was dated
                   August 27, 2008.

                   OIG Position

                   In order to reach management decision on this recommendation, FSA needs
                   to provide OIG with the actions it intends to take, if any, based on the legal
                   advice received from the Office of the General Counsel.




USDA/OIG-A/03601-17-Ch                                                                   Page 11
Finding 2                          FSA Needs to Enhance its Oversight to Include a Review of
                                   Interest Rates

                                   FSA officials were not aware that lenders participating in the guaranteed loan
                                   program did not comply with interest rate requirements (see Finding 1).
                                   FSA’s oversight processes and review guides did not require an assessment
                                   of lenders’ interest rates. FSA officials stated that they did not monitor or
                                   evaluate compliance with interest rate requirements because they relied on
                                   lenders to honor their written agreement with FSA, in which the lenders agree
                                   to follow Federal regulations and FSA guidelines. As a result, FSA officials
                                   have reduced assurance that lenders complied with program interest rate
                                   requirements. FSA has guaranteed 56,000 loans nationwide.24

                                   FSA conducts oversight reviews25 of the guaranteed loan program to evaluate
                                   the effectiveness of the program and to ensure compliance with applicable
                                   regulations, directives and statutes. These reviews are conducted by national,
                                   State and/or county personnel.

                                   We assessed FSA’s oversight reviews26 for its guaranteed loan program and
                                   found that the reviews did not identify any program weaknesses or non-
                                   compliance with interest rate requirements. We also reviewed FSA’s Farm
                                   Loan Program review requirements in the Farm Loan Handbooks27 and the
                                   oversight review guides used for its FLPRA, lender file reviews and the
                                   COR. We found that these guides did not include an evaluation of
                                   compliance with interest rate requirements.

                                   At one of the two States we visited, FSA officials amended their annual
                                   lender review checklist to include a question about interest rates. The
                                   question asked lending officials if the interest rates charged were equal to or
                                   less than its average agricultural loan customer rate. FSA State and county
                                   officials informed us that they always accept a lender’s response to that
                                   question because they do not know what evidence to request to confirm
                                   compliance. Both of the lenders we visited in this State responded that their
                                   rates were less than their average agricultural loan customer rate. As reported
                                   in Finding 1, we determined that neither lender calculated or used an average
                                   agricultural loan customer rate, nor were all their interest rates at, or below,
                                   the rate charged to their average agricultural loan customer.




24
   Based on the 55,906 guaranteed loans in the Guaranteed Loan System as of October 24, 2007.
25
   FSA oversight reviews include FLPRA, lender reviews, and the COR review program.
26
   We reviewed all 22 FLPRA reviews from FY 2005 to FY 2007, the COR reviews for FY 2005 and FY 2006, and 43 of 77 lender file reviews that were
completed during FYs 2006 and 2007, for the 4 counties we visited.
27
   FSA’s Farm Loan Program review requirements are listed in three handbooks: (1) County Operations Review Program, (2) Loan Making and
Servicing, and (3) General Program Administration.
USDA/OIG-A/03601-17-Ch                                                                                                              Page 12
                   When we discussed oversight procedures with FSA national officials, they
                   stated they did not perform any type of nationwide monitoring or analysis on
                   interest rates. FSA officials stated that it was up to the lender and borrower to
                   negotiate the interest rate, and they would not question a lender’s interest rate
                   unless it was dramatically higher (e.g., one percent or more) than other
                   lenders in the area. However, because FSA officials are not performing an
                   analysis of interest rates, they were not aware that a loan was entered into
                   Guaranteed Loan System with a 70.5 percent interest rate. After OIG
                   questioned this rate, FSA officials determined there was an input error and
                   the correct rate should have been 10.5 percent.

                   FSA national officials also stated that they rely on lenders to adhere to
                   program rules and Federal regulations in accordance with the agreement each
                   participating lender signs, and the State and county office staffs’ familiarity
                   with lenders. FSA officials also stated that competition from other lenders
                   would also keep a tight control on interest rates. However, as noted in
                   Finding 1, we found that the five lenders we reviewed were not following
                   interest rate requirements, and we determined that four lenders potentially
                   charged some borrowers as much as 2.25 percent over the lenders’ average
                   agricultural loan customer rates (see Table 1 on page 6).

                   We concluded that FSA has not established procedures to effectively review
                   or analyze whether the lenders’ interest rates exceeded regulatory
                   requirements. FSA should amend its Guaranteed Loan Handbook and review
                   guidelines to include an assessment of the lenders’ interest rates. The
                   handbook should also include detailed instructions for State and county
                   officials to follow on what documents should be reviewed and what
                   corrective actions to take. Until FSA officials enhance their oversight
                   process, they have reduced assurance that lenders are not charging FSA
                   guaranteed loan borrowers interest rates higher than the lenders charge their
                   average agricultural loan customers.

                   FSA officials agreed that additional controls are needed over interest rates in
                   the guaranteed loan program. They informed us they have already initiated
                   actions and studies to determine the best means to make adjustments to the
                   program.

Recommendation 6

                   Develop and implement in the Farm Loan Program review process, specific
                   steps to review and verify whether lenders were in compliance with interest
                   rate requirements. This process should detail what documentation to review,
                   as well as corrective actions to take when problems are found.




USDA/OIG-A/03601-17-Ch                                                                     Page 13
                   Agency Response

                   In their response, FSA officials stated that they will develop an automated
                   system to verify if lenders that tie interest rates to published indices are in
                   compliance with interest rate requirements. System development should be
                   completed by December 31, 2009. Additionally 2-FLP will be amended to
                   outline a specific review process for those lenders utilizing risk based pricing
                   models by September 30, 2009.

                   OIG Position

                   We accept FSA’s management decision on this recommendation.

Recommendation 7

                   Establish and implement procedures to periodically monitor interest rates on
                   guaranteed loans on a nationwide basis to identify trends or questionable
                   information. The procedures should include follow-up actions to be taken
                   when questionable or incorrect items are identified to assure adequate and
                   timely resolution.

                   Agency Response

                   In their response, FSA officials stated that they will develop automated
                   reports through the Guaranteed Loan System database and maintain them at
                   National Headquarters. The reports will be developed by September 30, 2009,
                   and will be modified when new regulations change the process. Headquarters
                   staff will review reports, identify trends, and take appropriate actions to
                   correct any identified deficiencies.

                   OIG Position

                   We accept FSA’s management decision on this recommendation.




USDA/OIG-A/03601-17-Ch                                                                    Page 14
Scope and Methodology
                                  We performed our audit fieldwork from September 2007 through
                                  May 2008 at FSA’s national office in Washington, D.C., State offices in
                                  Nebraska and Wisconsin, and two county offices in each State. The audit
                                  covered FSA’s current guaranteed loan-making and servicing rules, policies,
                                  and procedures. As of October 24, 2007, FSA’s Guaranteed Loan System
                                  included approximately 3,000 lenders with loan guarantees on 55,906 loans
                                  valued at $12.1 billion.28

                                  We judgmentally selected the Nebraska and Wisconsin State offices for
                                  review because both States were among the top five States in terms of overall
                                  participation in the guaranteed loan and IA programs. In addition, both States
                                  had over 150 loans with interest rates over 10 percent. In FY 2007, the
                                  2 States had 6,074 guaranteed loans at a total value of $1.3 billion,
                                  1,254 guaranteed loans with IA totaling $8.7 million, and a total of
                                  356 lenders participating in the guaranteed loan program.

                                  We judgmentally selected 71 loans totaling $16.9 million to review from the
                                  839 guaranteed loans valued at $167 million that were approved by the
                                  4 counties we visited in Nebraska and Wisconsin. The 71 loans we selected
                                  were approved by FSA between FYs 2000 and 2007, of which 68 were
                                  approved from FY 2002 to FY 2006. We based our sample selection on
                                  interest rates for OLs that exceeded 10 percent and FOs that exceeded
                                  8 percent. Another criterion for our sample was to select OLs with interest
                                  assistance. Our sample of 71 loans included 47 with interest assistance.

                                  We also visited five lenders, two in Nebraska, and three in Wisconsin, based
                                  on having a large number of loans that met the criteria as stated above. The
                                  5 lenders had 446 FSA guaranteed loans at a value of $80.3 million. The first
                                  two lenders we visited provided various explanations of their interest rate
                                  policies and historical rate sheets for farm loans. However, the next three
                                  lenders provided only brief descriptions of their interest rate policies and did
                                  not provide us with historical rate information. We did not have access to any
                                  of the five lenders’ non-guaranteed agricultural loan portfolios. The lack of
                                  reliable information and access to interest rate information for all agricultural
                                  loans made by the lenders limited our ability to conclusively state whether
                                  interest rates charged guaranteed borrowers exceeded the lenders’ average
                                  agricultural loan customer rates.

                                  We conducted this performance audit in accordance with generally accepted
                                  government auditing standards. Those standards require that we plan and
                                  perform the audit to obtain sufficient, appropriate evidence to provide a
28
  Source: The loan information listed above was derived from FSA’s Guaranteed Loan System as of October 24, 2007. We present the value of the
guaranteed loans at the time of their approval by FSA.
USDA/OIG-A/03601-17-Ch                                                                                                            Page 15
                   reasonable basis for our findings and conclusions based on our audit
                   objectives. We believe that, except for the scope limitation described in the
                   preceding paragraph, the evidence obtained provides a reasonable basis for
                   our findings and conclusions based on our audit objectives.

                   To accomplish our audit objectives we:

                         Interviewed FSA national, State, and county officials to determine
                         interest rate requirements for guaranteed loans and the IA program.

                         Reviewed the Consolidated Farm and Rural Development Act, Federal
                         regulations, and the Farm Loan Program Handbooks that detailed FSA’s
                         policies and procedures for interest rates and IA program.

                         Reviewed all 22 FLPRA reviews from FY 2005 to FY 2007 and the
                         COR reviews for FYs 2005 and 2006.

                         Reviewed State and county office records and 43 of 77 lender file
                         reviews that were completed in the 4 selected counties during
                         FYs 2006 and 2007.

                         Analyzed the loan information maintained in Guaranteed Loan System to
                         identify a sample of loans to review from the universe of active
                         guaranteed loans. We used the results of our analysis to make State,
                         county, and lender selections.

                         Reviewed lender files at State offices to determine if State reviews of
                         lenders disclosed any weaknesses or areas of concern.

                         Reviewed borrower files at county offices to document data for
                         comparison to lender records and to verify the accuracy of IA claims and
                         compliance with interest rate requirements.

                         Reviewed borrower eligibility determinations for guaranteed loans and
                         participation in the IA program at county offices.

                         Reviewed lender records to ensure the accuracy of IA payments made to
                         lenders and the reduction of borrowers’ interest payments.

                         Interviewed lender officials to obtain an understanding of their interest
                         rate policy and FSA guaranteed loan making and servicing activities.




USDA/OIG-A/03601-17-Ch                                                                    Page 16
                         Established an average agricultural loan customer rate at each lender
                         using historical interest rate records and/or a verbal explanation of how
                         they established interest rates, and compared it to the actual rate received
                         by the guaranteed borrowers. We also compared the loan note rate to the
                         Federal Reserve Prime Rate.

                         Calculated estimates of the total interest expense over the life of the loan
                         using both the loan’s original interest rate and the average agricultural
                         loan customer rate that we established at each lending institution.




USDA/OIG-A/03601-17-Ch                                                                      Page 17
Exhibit A–Agency Response
                            Exhibit A – Page 1 of 4




USDA/OIG-A/03601-17-Ch                  Page 18
Exhibit A–Agency Response
                            Exhibit A – Page 2 of 4




USDA/OIG-A/03601-17-Ch                  Page 19
Exhibit A–Agency Response
                            Exhibit A – Page 3 of 4




USDA/OIG-A/03601-17-Ch                  Page 20
Exhibit A–Agency Response
                            Exhibit A – Page 4 of 4




USDA/OIG-A/03601-17-Ch               Page 21
Informational copies of this report have been distributed to:

Administrator, FSA                                              (10)
       Attn: Agency Liaison Officer
Government Accountability Office                                 (1)
Office of Management and Budget                                  (1)
Office of the Chief Financial Officer
       Director, Planning and Accountability Division            (1)
